No.
IN THE

Supreme Court of the United States
DERRICK VAUGHN,
v.

Petitioner,

UNITED STATES OF AMERICA,

Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Seventh Circuit
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I hereby certify that this Petition
for a Writ of Certiorari contains 3,034 words, including footnotes but excluding parts
of the document that are exempted by Supreme Court Rule 33.1(d). In making this
certification, I have relied on the word count of the word-processing system used to
prepare this Petition.
Pursuant to 28 U.S.C. ยง 1746, I declare under the penalty of perjury that the
foregoing is true and correct.
Executed on June 30, 2021

s/Paul D. Geiger
Paul D. Geiger

Counsel of Record

LAW O FFICES OF PAUL D. G EIGER
540 W. Frontage Road, Suite 3020
Northfield, IL 60093
(773) 410-0841
pauldgeiger@gmail.com

Counsel for Petitioner

